NRC: OIG/96A-17 - Review of NRC's Implementation of The Federal Managers' Financial Integrity Act For Fiscal Year 1996
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1997 > OIG/96A-17
OIG/96A-17 - Review of NRC's Implementation of The Federal Managers' Financial Integrity Act For Fiscal Year 1996
Contents
Overview
Report Synopsis
Introduction
Findings
Conclusion
Recommendations
Objectives, Scope, and Methodology
Major Contributors to this Report
Glossary:  Office of the Inspector General Products
Overview
Office of the Inspector General U.S. Nuclear Regulatory Commission Washington, DC  20555 March 31, 1997
Memorandum to:
Chairman Jackson,
Commissioner Rogers,
Commissioner Dicus,
Commissioner McGaffigan,
Commissioner Diaz
From:
Hubert T. Bell
Inspector General
Subject:
Review of NRC's Implementation of The Federal Managers' Financial Integrity
Act For Fiscal Year 1996
The Federal Managers' Financial Integrity Act (FMFIA) requires Federal managers to establish a continuous process for evaluating, improving, and reporting on the internal control and accounting systems for which they are responsible.  The FMFIA requires that by December 31 of each year, the head of each executive agency subject to the Act shall submit a report to the President and Congress on the status of management controls and financial systems that protect the integrity of agency programs and administrative activities.  As part of an Office of Management and Budget (OMB) sponsored pilot program to streamline financial reporting, NRC issues its FMFIA report as part of its annual "Accountability Report" due by March 31.
OMB Circular A-123, Revised, "Management Accountability and Control," is the implementing guidance for FMFIA.  The term "internal controls," as envisioned by the FMFIA, is synonymous with "management controls" and encompasses program and administrative areas, as well as the accounting and financial management areas.
NRC redesigned and streamlined its management control program in accordance with the National Performance Review recommendations and OMB's 1995 revision to OMB Circular A-123.  The redesigned program required offices designated as highest risk (with respect to programmatic and administrative activities) to submit management control plans and reasonable assurance letters to NRC's Executive Committee for Management Controls.  The Executive Director for Operations (EDO) is the Chairman of the Executive Committee.
We found that NRC has complied with the requirements of the FMFIA during Fiscal Year (FY) 1996.  Although our work did not identify any material weaknesses in FY 1996, the former EDO identified a concern as a potential material weakness in a memorandum to the Executive Committee on January 2, 1997.  The concern involves the adequacy of NRC's program to ensure licensees' compliance with their licensing and design bases.  Although NRC preliminarily determined that the concern is not a material weakness, NRC is evaluating the need for additional action.  We plan to monitor NRC's actions on this issue.
Attachment:  As stated
cc:
L. Callan, EDO J. Blaha, AO/OEDO P. Norry, DEDM/OEDO H. Thompson,
DEDR/OEDO E. Jordan, DEDO/OEDO A. Galante, CIO J. Funches, CFO
J. Cordes, Acting OCAA D. Rathbun, OCA K. Cyr, OGC C. Stoiber,
OIP W. Beecher, OPA J. Hoyle, SECY E. Halman, ADM D. Ross,
AEOD R. Scroggins, OC G. Cranford, IRM G. Caputo, OI P.
Bird, OP I. Little, SBCR R. Bangart, OSP C. Paperiello, NMSS
S. Collins, NRR D. Morrison, RES T. Taylor, ACMUI P. Pomeroy,
ACNW R. Seale, ACRS P. Cotter, Jr., ASLBP H. Miller, RI
L. Reyes, RII A. Beach, RIII J. Dyer, Acting Regional Administrator,
RIV OPA-RI OPA-RII OPA-RIII OPA-RIV OPA-RIV-FO
We found that NRC has complied with the requirements of the FMFIA during Fiscal Year (FY) 1996.  Although our work did not identify any material weaknesses in FY 1996, the former EDO identified a concern as a potential material weakness in a memorandum to the Executive Committee on January 2, 1997.  The concern involves the adequacy of NRC's program to ensure licensees' compliance with their licensing and design bases.  Although NRC preliminarily determined that the concern is not a material weakness, NRC is evaluating the need for additional action.  We plan to monitor NRC's actions on this issue.
Attachment: As stated
Report Synopsis
Continuing disclosures of Federal waste, loss, unauthorized use, and misappropriation of funds or assets associated with weak internal controls and accounting systems resulted in the passage of the Federal Managers' Financial Integrity Act (FMFIA) in September 1982.  The FMFIA requires Federal managers to establish a continuous process for evaluating, improving, and reporting on the internal controls and accounting systems for which they are responsible.
In 1995, the Nuclear Regulatory Commission (NRC) redesigned and streamlined its management control program in accordance with the National Performance Review recommendations and the Office of Management and Budget's 1995 revision to Circular A-123.  The redesigned program required offices designated as the highest risk to submit management control plans and reasonable assurance letters to an Executive Committee for Management Controls.  The Executive Director for Operations (EDO)  is Chairman of the Executive Committee.
To assist NRC in evaluating its management control program, the Office of the Inspector General annually reviews NRC's program. Overall, we believe that NRC has complied with the requirements of the FMFIA during Fiscal Year (FY) 1996.  Although our work did not identify any material weaknesses in FY 1996, the former EDO identified a concern as a potential material weakness to the Executive Committee on January 2, 1997.  The concern involves the adequacy of NRC's program to ensure licensees' compliance with their licensing and design bases.  Although NRC preliminarily determined that the concern was not a material weakness, NRC is evaluating the need for additional action.  We plan to monitor NRC's actions on this issue.
Introduction
The Federal Managers' Financial Integrity Act (FMFIA) was enacted on September 8, 1982, in response to continuing disclosures of waste, loss, unauthorized use, and misappropriation of funds or assets associated with weak internal controls and accounting systems.  Congress felt such abuses hampered the effectiveness and accountability of the Federal Government and eroded the public's confidence.  The FMFIA requires Federal managers to establish a continuous process for evaluating, improving, and reporting on the internal controls and accounting systems for which they are responsible.
Office of Management and Budget (OMB) Circular A-123, Revised, "Management Accountability and Control," is the implementing guidance for FMFIA.  The term "internal controls," as envisioned by the FMFIA, is synonymous with "management controls" and encompasses program and administrative areas, as well as the accounting and financial management areas.  OMB defined management controls in Circular A-123 as the controls used to ensure that (1) organization, policies and procedures are reasonable to ensure that programs achieve their intended results; (2) resources are used consistent with agency mission; (3) programs and resources are protected from waste, fraud, and mismanagement; (4) laws and regulations are followed; and, (5) reliable and timely information is obtained, maintained, reported and used for decision making.
See Appendix I for the objective, scope, and methodology of our review.
Background
The FMFIA requires that by December 31 of each year, the head of each executive agency subject to the Act shall submit a report to the President and Congress on the status of management controls and financial systems that protect the integrity of agency programs and administrative activities.
In Fiscal Year (FY) 1995, NRC redesigned and streamlined its management control program in accordance with the National Performance Review recommendations and the 1995 revision to OMB Circular A-123.  The redesigned program required offices designated as the highest risk (with respect to programmatic and administrative activities) to submit management control plans and reasonable assurance letters to the Chairman, Executive Committee for Management Controls.  The Executive Director for Operations (EDO) is the Chairman of the Executive Committee.
NRC is one of six pilot agencies granted permission to streamline financial reporting pursuant to the Government Management Reform Act (GMRA).  GMRA permits the Director of the OMB to consolidate or adjust the frequency and due dates of certain statutory financial management reports after consultation with Congress.  For FY 1995(1), NRC streamlined its reporting requirements by issuing its first "Accountability Report," which included NRC's FMFIA reporting requirements.
To assist NRC in evaluating its management control program, the Office of the Inspector General (OIG) annually reviews NRC's program.
Findings
We found that NRC has complied with FMFIA requirements for FY 1996.  Although our work did not identify material weaknesses in FY 1996, the former EDO identified a potential material weakness to the Executive Committee for Management Controls in a January 2, 1997 memorandum.  The concern involves the adequacy of NRC's program to ensure licensees' compliance with their licensing and design bases.  NRC has preliminarily determined that the concern is not a material weakness in management controls.
In its FY 1996 Accountability Report, NRC notes that it has corrective actions underway to address this concern.  To determine the extent of the problem, NRC requested design basis information from all nuclear power plant licensees.  NRC states that its evaluation of licensees' responses will aid in determining "significance and the need for additional generic follow up actions."  We plan to monitor NRC actions on this issue.
Follow up on Prior Year Recommendations
In response to the recommendations contained in our FY 1995 report, NRC revised and clarified the criteria for management control plans.  In addition to addressing our recommendations, the revisions provide reporting flexibility for NRC offices.  We are satisfied that the corrective actions address our concerns, therefore, we consider these recommendations closed.
Conclusion
Overall, we believe that NRC has complied with the requirements of the FMFIA during FY 1996.  We also believe that continuing management attention is needed to address the concerns expressed in the EDO's January 2, 1997, memorandum to the Executive Committee for Management Controls.  When completed, NRC's review of licensees' responses should form the basis for a final conclusion about the former EDO's concerns.
Recommendations
Because NRC has already initiated corrective actions with respect to the former EDO's concerns,  we are not making recommendations.
Objectives, Scope, and Methodology
Our objective was to determine whether the U.S. Nuclear Regulatory Commission (NRC) complied with the provisions of the Federal Managers' Financial Integrity Act, which requires Federal managers to establish a continuous process for evaluating, improving, and reporting on the internal control and accounting systems for which they are responsible.
We conducted our review at NRC Headquarters between April 1996 and January 1997.  We reviewed applicable laws, implementing guidance, and the management control plans and reasonable assurance letters submitted by NRC offices in 1996.  Our review included discussions with the Executive Committee staff and other NRC officials.
Our review was conducted in accordance with generally accepted Government auditing standards and included such tests of the data and records and other auditing procedures as we considered necessary.
Major Contributors to this Report
Anthony C. Lipuma Team Leader
Gary S. Janosko Audit Manager
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
. OMB required that NRC's "Accountability Report" be due by
March 31 each year.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees